HHS/OIG-Audit--"Review of the Adjusted Community Rate Proposal Submitted to the Health Care Financing Administration by a Texas-based Medicare+Choice Managed Care Organization for the 2000 Medicare Contract Year, (A-06-00-00052)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Adjusted Community Rate Proposal Submitted to the Health
Care Financing Administration by a Texas-based Medicare+Choice Managed Care Organization
for the 2000 Medicare Contract Year," (A-06-00-00052)
January 24, 2001
Complete
Text of Report is available in PDF format (1.72 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process for
determining Medicare capitation rates under risk-based contracts with managed care
organizations (MCO). At a Texas-based MCO we found that $10 million of administrative
costs reported as Medicare base year costs would have been considered unallowable
under Medicare's general principle of paying only reasonable costs, as is the case
with cost-based MCOs. If held to such criteria, administrative costs reported in
the MCO's 2000 ACR would have been reduced by $13.9 million based on the MCO's
projected Medicare enrollment level. In our report we point out these flaws in
the current methodology which results in Medicare covering a disproportionate share
of the MCO's administrative costs. Additional reviews are ongoing and preliminary
results show similar problems at other MCOs. The results of these reviews are being
shared with the Health Care Financing Administration so that appropriate legislative
changes can be considered.